<html>
<title> - TO EXAMINE THE STATE OF FORENSIC SCIENCE IN THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]






     TO EXAMINE THE STATE OF FORENSIC SCIENCE IN THE UNITED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                 HOMELAND SECURITY, AND INVESTIGATIONS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 28, 2017

                               __________

                            Serial No. 115-8

                               __________

         Printed for the use of the Committee on the Judiciary




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://judiciary.house.gov
                                       ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-993 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
         
      
      
      
      
      
      
      
      
      
      
      
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR SMITH, Texas                   ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr., 
TRENT FRANKS, Arizona                    Georgia
LOUIE GOHMERT, Texas                 THEODORE E. DEUTCH, Florida
JIM JORDAN, Ohio                     LUIS V. GUTIERREZ, Illinois
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
TOM MARINO, Pennsylvania             HAKEEM S. JEFFRIES, New York
TREY GOWDY, South Carolina           DAVID CICILLINE, Rhode Island
RAUL LABRADOR, Idaho                 ERIC SWALWELL, California
BLAKE FARENTHOLD, Texas              TED LIEU, California
DOUG COLLINS, Georgia                JAMIE RASKIN, Maryland
RON DeSANTIS, Florida                PRAMILA JAYAPAL, Washington
KEN BUCK, Colorado                   BRAD SCHNEIDER, Illinois
JOHN RATCLIFFE, Texas
MARTHA ROBY, Alabama
MATT GAETZ, Florida
MIKE JOHNSON, Louisiana
ANDY BIGGS, Arizona
          Shelley Husband, Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

 Subcommittee on Crime, Terrorism, Homeland Security and Investigations

                  TREY GOWDY, South Carolina, Chairman
                  LOUIE GOHMERT, Texas, Vice-Chairman
JIM SENSENBRENNER, Jr., Wisconsin    SHEILA JACKSON LEE, Texas
STEVE CHABOT, Ohio                   TED DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
JASON CHAFFETZ, Utah                 CEDRIC L. RICHMOND, Louisiana
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
MARTHA ROBY, Alabama                 TED LIEU, California
MIKE JOHNSON, Louisiana              JAMIE RASKIN, Maryland

















                            C O N T E N T S

                              ----------                              

                             MARCH 28, 2017

                           OPENING STATEMENTS

                                                                   Page
The Honorable Trey Gowdy, South Carolina, Chairman, Subcommittee 
  on Crime, Terrorism, Homeland Security, and Investigations; 
  Committee on the Judiciary.....................................     1
The Honorable Sheila Jackson Lee, Texas, Ranking Member, 
  Subcommittee on Crime, Terrorism, Homeland Security, and 
  Investigations; Committee on the Judiciary**...................     3
The Honorable Bob Goodlatte, Virginia, Chairman, Committee on the 
  Judiciary......................................................     4

                               WITNESSES

Dr. Victor Weedn, MD, JD, Professor of Forensic Sciences, George 
  Washington University
  Oral Statement.................................................     7
The Mr. Matthew Gamette, Lab System Director, Idaho State Police 
  Forensic Science
  Oral Statement.................................................     9
Dr. David Baldwin, Special Technologies Laboratory, National 
  Security Technologies LLC
  Oral Statement.................................................    11
Ms. Sandra Guerra Thompson, Professor at University of Houston 
  Law Center, Chair at Houston Forensic Science Center
  Oral Statement.................................................    12

              Additional Material Submitted for the Record

Material submitted by the Honorable John Ratcliffe, Texas, House 
    Judiciary Committee:

    http://docs.house.gov/meetings/JU/JU08/20170328/105786/HHRG-115-
JU08-20170328-SD003.pdf

 
     TO EXAMINE THE STATE OF FORENSIC SCIENCE IN THE UNITED STATES

                              ----------                              


                        Tuesday, March 28, 2017

                       House of Representatives,

       Subcommittee on Crime, Terrorism, Homeland Security, and 
                            Investigations,

                      Committee on the Judiciary,

                            Washington, DC.

    The subcommittee met, pursuant to call, at 3:00 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Trey Gowdy 
[chairman of the subcommittee] presiding.
    Present: Representatives Gowdy, Goodlatte, Ratcliffe, 
Chabot, Jackson Lee, Conyers, and Lieu.
    Staff Present: Jason Cervenak, Counsel; Scott Johnson, 
Clerk; Joe Graupensperger, Minority Counsel; Veronica Eligan, 
Minority Professional Staff Member; Regina Milledge-Brown, 
Minority Crime Detailee; Karis Johnson, Minority Legislative 
Counsel.
    Mr. Gowdy. Welcome. The committee will come to order. The 
Subcommittee on Crime, Terrorism, Homeland Security, and 
Investigations has come to order. Without objection, the chair 
is authorized to declare recesses of the subcommittee at any 
time.
    We welcome everyone to today's hearing on forensic science. 
Just for our witnesses, we are very grateful to have you here, 
on behalf of Ms. Jackson Lee and myself. And to our guests in 
the audience, that buzzer you just heard is them calling votes.
    So Ms. Jackson Lee and I will give our opening statements. 
Then we will recess and go vote, and then we will come back and 
have the hearing, and then there is another vote series on the 
other side. So, I apologize for any inconvenience. I will give 
you the names of the people to blame. Neither one of them are 
in front of you right now.
    With that, I will recognize myself on opening statement, 
and I will tell the witnesses, there is a wonderful opening 
statement that was prepared and given to me, and I am going to 
make it part of the record. But I am also going to divert a 
little bit this morning to talk about something that I am even 
more familiar with, which is the real-life value of forensic 
science.
    Lawyers do not win cases. Facts win cases, and 
increasingly, those facts are rooted in science.
    Twenty years ago, I met a young man by the name of Ricky 
Tyrone Samuel. Ricky had a wonderful mother by the name of 
Sylvane, who loved him and wanted a good life for him, and 
Ricky got into a little bit of trouble, as young men, from time 
to time, do. So, Ricky had a choice: he could follow that 
sometimes-predictable path for young people who get in trouble, 
or he could use that incident to try to turn his life around. 
He chose to turn his life around, and he met with us at the 
United States Attorney's Office, and he met with Federal law 
enforcement officers and did what we encourage people to do in 
all facets of life, which is to accept responsibility and tell 
the truth.
    I was sitting in a courtroom about 6 months after I met 
Ricky Samuel, well before they had cell phones, and you could 
feel the pager vibrate. But you cannot look at it, not in a 
room with a Federal judge. So, it just kept vibrating and 
vibrating and vibrating, and finally, on a break, I looked and 
saw those ominous numbers, 911, connected with a callback 
number to an ATF agent who I was working the case with. And I 
called the ATF agent back, and he said Ricky Samuel's body was 
found this morning on his knees beside an isolated, tranquil 
pond in northern Greenville County. No witnesses except the 
trees. No shell casings. Just a single bullet, execution-style, 
in the back of his head.
    Now, I knew exactly who was responsible for killing Ricky 
Samuel. His name had just been released to the criminal defense 
attorneys that were defending someone in a Federal criminal 
trial; just released the name in discovery. But knowing 
something and proving something are two entirely different 
things. I knew who was responsible; now, we had to prove it.
    In Ricky's home in Spartanburg, there was a Bible, and that 
is not unusual in South Carolina to find a Bible, but this one 
was brand new. It was a gift from a man who had been visiting 
in the neighborhood, going door to door trying to introduce 
people to Jesus. So, the police took that Bible into evidence 
for some reason. They logged it in.
    Now, on a single, solitary page in a single, solitary book 
called Ezekiel was a fingerprint. Wouldn't be unusual to find a 
fingerprint in my wife's Bible or my grandmother's Bible. 
Pretty unusual to find one in a brand-new Bible. So, the police 
ran that fingerprint through the database and it came back to a 
Bob Harry Fowler. Mr. Fowler was not a preacher. Mr. Fowler was 
not an evangelist. Mr. Fowler was a contract killer sent to 
Spartanburg, South Carolina to kill a Federal witness.
    I do not remember the name of the technician. I do remember 
the name of the judge. I remember the name of the defense 
attorney. I remember the prosecutor who took the lead in that 
case because it is the best prosecutor I have ever seen in my 
life or ever will see in my life, a man by the name of David 
Stephens. What I remember most of all is that Ricky Samuel's 
mother now knows who killed him. And she knows who killed him 
because a technician took the time to flip through every single 
page of a piece of evidence that most lawyers would have said, 
``do not even collect it.''
    Nothing can mitigate the pain of a loss, but knowing that 
the people who took your son's life are serving life without 
parole in Federal prison is at least one way to close the 
chapter, at least on the criminal justice part of it. A single, 
solitary fingerprint on a single, solitary page in the Book of 
Ezekiel was the single best piece of evidence that we had in 
what was the only Federal murder case in the last 25 years in 
the upstate of South Carolina.
    It is because of science. Science convicts. Science 
exonerates. Science is what the jury wants. Science is what the 
jury needs. And with that, I would recognize the ranking member 
from Texas.
    Ms. Jackson Lee. Mr. Chairman, what a powerful and eloquent 
statement, and it captures the essence of this hearing, and it 
shows that the issue of the state of forensic science in the 
United States helps victims in many ways: the victims of a 
heinous crime, or the victim of being convicted incorrectly. 
And that is what justice is about.
    I am delighted to welcome Dr. Weedn from George Washington 
University, who I know all will be introduced as we return. Mr. 
Matthew Gamette from Idaho State, Dr. David Baldwin from the 
National Securities Technologies Limited, and of course, 
Professor Sandra Guerra Thompson of the University of Houston 
Law Center and the chair of the Houston Forensic Science 
Center.
    I want to take note of the fact, in my home city of 
Houston, one such cardinal incident regarding someone convicted 
wrongly led to the creation of the Houston Forensic Science 
Center, which my constituent and our distinguished guest, 
Professor Sandra Guerra Thompson, chairs as the preeminent 
national model for forensic science practices.
    The Houston Forensic Science Center became a distinguished 
model as a result of the willingness of the law enforcement and 
judicial community of Harris County to collectively recalibrate 
outdated practices relied upon during the George Rodriguez case 
and so many others leading to wrongful convictions.
    Mr. Rodriguez was sentenced to 60 years in prison in 1987 
for sexual assault. His conviction was based on inaccurate body 
fluid evidence and hair analysis. One important aim in the 
quest for reliability in forensic scientific evidence, which I 
look forward to hearing the witnesses' testimony, is to 
acknowledge and correct the calamities of our judicial system's 
failure to obtain the ends of justice rightly and claiming as 
casualty those who have been wrongfully convicted in our 
communities.
    In 2001, the Innocence Project took on the Rodriguez case. 
A judge ordered testing on the remaining evidence. A showing 
was made that the Houston Police Department's HPD crime 
laboratory, as has been found common among investigatory 
facilities in many jurisdictions, mishandled, not purposely, 
the retesting of biological materials, and the laboratory was 
ultimately shut down due to the insecure integrity of its work 
in numerous cases. After a man erroneously served 17 years in 
prison, we must consider the serious consequences of such cases 
where subsequent laboratory retesting excludes suspects like 
Mr. Rodriguez as a viable match to all DNA evidence, allowing 
his conviction to be vacated and affirming the innocence he 
maintained all around.
    The scales of justice, Lady Justice, requires that we 
adhere to the principles of justice, and that is that those who 
do the crime are under the hand of justice, receive the 
penalty. Those who are innocent receive the victory.
    The HFSC, which operates independently of law enforcement 
and with full transparency, is now in place, beginning in 2014, 
with a mission to receive and analyze and preserve physical and 
digital evidence.
    Let me take note of the fact that this crime lab is the 
only crime lab in the Nation to implement blind proficiency 
testing. So, I am very glad to look forward to the testimony. 
And they have overturned 119 convictions. George Rodriguez is 
one of the cases, Mr. Chairman, that they have done so.
    Let me, again, acknowledge the importance of this hearing, 
but as well, let me acknowledge the importance, Mr. Chairman, 
of us working together on a number of other issues. As we look 
at these witnesses, I would like to see hearings dealing with a 
restoring or reviving the effort that we made on criminal 
justice reform, which would include sentencing reduction--in 
the last Congress, it was H.R. 3713; to see prison reform, 
which we introduced in the last Congress; and as well, the 
Tiffany Joslyn Juvenile Block Grant Reauthorization and Anti-
Bullying Prevention and Intervention Act, and then the Law 
Enforcement Trust and Integrity Act.
    Both of us serve on the Police Working Group, and we 
recognize our important Congress influence in that. And I do 
believe both of us serve on the Crime, Terrorism, Homeland 
Security, and Investigations, which this committee is, and this 
hearing pertains specifically to that.
    The bills that I just suggested pertain specifically to 
rendering a criminal justice system that is fair to all, Mr. 
Chairman, but we do deal with issues of criminality, and I 
believe that it is important, without making any suggestions, 
that we get the information under our jurisdiction relating to 
issues of Russia, Russian collusion, and also any comments 
being made about the actions of a former President as it 
relates to wiretapping. I know that we will have FISA hearings, 
but I hope that we will be able to pursue these, as I know the 
Senate subcommittee so named did the same.
    I want to thank you, Mr. Chairman, for yielding to me, and 
I look forward to working with you on a number of issues, 
including what we are having before us, as well as the issues 
that I indicated in my remarks. With that, I yield back.
    Mr. Gowdy. Well, I will thank the gentlelady from Texas, 
and I would agree with her 100 percent. We need a justice 
system that is not only respected, but one that is worthy of 
respect, and you have been a champion in any number of regards 
on that, and I look forward to working with you as we try to 
make sure we have a justice system that is respected.
    With that, Ms. Jackson Lee and I will retire to vote. I 
mean that figuratively, not literally. We will go vote, and we 
will come back. And please accept our apologies for any delay. 
We will be back as quickly as we can.
    And with that, we are in recess.
    Mr. Gowdy. The committee is back in order. The chair will 
now recognize the gentleman from the great State of Virginia, 
the chairman of the full committee, Mr. Goodlatte.
    Chairman Goodlatte. Well, thank you, Mr. Chairman. I thank 
you very much for holding this important hearing today.
    The use of forensic science to solve crimes has existed for 
centuries. One of the first recorded examples occurred in the 
year 1248. A Chinese book entitled The Washing Away of Wrongs 
detailed how to differentiate between strangulation and 
drowning. It is believed to be the first recorded application 
of medical knowledge used to solve a crime.
    Fast forward 739 years to the year 1987, and the field and 
the world witnessed a truly remarkable breakthrough in forensic 
science. While I am certain that our distinguished panel is 
familiar with the names of Richard Buckland and Colin 
Pitchfork, some may not be familiar with their story. Their 
story is the same story, but one with vastly different endings.
    In 1983, and again in 1986, two 15-year-old girls were 
raped and strangled to death. Using forensic science techniques 
available at the time, police linked samples taken from their 
bodies to a person with type-A blood and an enzyme profile that 
matched only 10 percent of males. The prime suspect was Richard 
Buckland, a 17-year-old juvenile.
    In the time between these two linked murders, Dr. Alec 
Jeffreys, a genetics researcher at the University of Leicester, 
developed DNA profiling, along with Peter Gill and David 
Werrett. Dr. Jeffreys and his colleagues demonstrated that it 
was possible to obtain DNA profiles from old samples. Using 
this technique, Dr. Jeffreys compared samples from both murder 
victims against a blood sample from Buckland and conclusively 
proved that both girls were killed by the same man, but not 
Buckland.
    Thus, Buckland became the first person to be exonerated 
through DNA testing. Dr. Jeffreys would later go on to state 
that he had ``no doubt whatsoever that Buckland would have been 
found guilty had it not been for DNA evidence.''
    Police undertook an investigation in which more than 5,000 
local men were asked to volunteer blood or saliva samples. 
After 6 months, no matches were found. In August of 1987, a 
coworker of Colin Pitchfork revealed to fellow workers in a pub 
that Pitchfork had paid him to give a sample while pretending 
to be Pitchfork. A bystander who overheard the conversation 
reported it to police. The following month, Pitchfork was 
arrested. Pitchfork confessed to both murders, and scientists 
found that his DNA profile matched that of the murderer. Thus, 
Pitchfork became the first person convicted of murder based on 
DNA profiling evidence.
    Over the ensuing 3 decades, law enforcement has come to 
rely on forensic science every day. Forensic science produces 
investigative leads and helps exonerate or convict persons of 
interest. It remains today, and will continue to be in the 
future, an invaluable tool in solving crimes of all types. In 
order for forensic science to be effective, it must be based on 
sound science and practiced by highly-skilled and trained 
professionals. The Federal Government should do its part to 
encourage State and local law enforcement to utilize critical 
DNA analysis.
    The House Judiciary Committee is doing its part.
    Last Congress, this committee reported out the Rapid DNA 
Act of 2016, a measure authored by the gentleman from 
Wisconsin, Mr. Sensenbrenner. The Rapid DNA Act amends the DNA 
Identification Act of 1994 to require the Federal Bureau of 
Investigation to issue standards and procedures for using rapid 
DNA instruments to analyze DNA samples of criminal offenders. 
While it once took days or weeks to ascertain, DNA testing can 
now be completed in a matter of hours. The Rapid DNA Act would 
ensure that this technology would be available to local law 
enforcement agencies.
    As our criminal justice system continues to rely heavily on 
forensic science, we need to ensure that the public's 
confidence in that system remains high, and this committee will 
do its part to meet that goal. I want to thank our witnesses, 
and I look forward to your testimony today. I yield back, Mr. 
Chairman.
    Mr. Gowdy. The chair thanks the gentleman from Virginia. It 
is now my pleasure to introduce our distinguished panel of 
witnesses. I will begin by asking you to please rise and take 
the oath, which we administer to all witnesses in this 
committee.
    Would you please raise your right hand? Do you swear the 
testimony you are about to give will be the truth, the whole 
truth, and nothing but the truth, so help you God?
    Let the record reflect all the witnesses answered in the 
affirmative. You can have your seat.
    I will introduce you en banc, and then I will recognize you 
individually. We will just say up front, given the fact that we 
have a pretty tight window given the votes on the other side, 
your complete statement is in the record, and all members of 
the committee will have a chance to look at it. And I am going 
to have a little bit of help introducing witnesses today 
because we have some folks that are interested in helping with 
that. So, give me one moment.
    Our first witness is Dr. Victor Weedn. He is a professor of 
forensic sciences at George Washington University. He is also a 
forensic pathologist and an attorney, who established the Armed 
Forces DNA Identification Lab, served as the medical examiner, 
and directed a regional crime laboratory.
    Dr. Weedn recently concluded his detail as senior adviser 
to the Deputy Attorney General at the U.S. Department of 
Justice.
    Our second witness is Mr. Matthew Gamette, and if I 
mispronounce your names, I apologize, and you feel free to 
correct me. And I probably did, based on your expression. Mr. 
Gamette has extensive experience in forensic sciences, having 
served in academic research and law enforcement capacities. He 
is currently the laboratory system director of the Idaho State 
Police Forensic Services.
    Mr. Raul Labrador wanted me to welcome you. He is on the 
committee, but not the subcommittee.
    Our third witness is Dr. David Baldwin, manager and 
principal investigator for research supporting forensic science 
at the Special Technologies Laboratory of National Security 
Technologies, LLC. Dr. Baldwin formerly served as director of 
the U.S. Department of Energy's laboratory in Ames, Iowa. He is 
a graduate of Lebanon Valley College and the Massachusetts 
Institute of Technology. And with that, I would recognize my 
colleague from Texas to introduce our final guest.
    Ms. Jackson Lee. Mr. Chairman, thank you for your 
courtesies. I am privileged to be able to introduce Professor 
Sandra Guerra Thompson, and I want to say how delighted I am 
that you had come back home, being a Laredo native, and that we 
have you here in Houston, Texas, in my district.
    You are the alumni college professor in law and director of 
the Criminal Justice Institute at the University of Houston Law 
Center. Since joining the faculty in 1990, she has authored 
numerous articles on criminal law topics, such as eyewitness 
identification and wrongful conviction, immigration crimes, 
jury discrimination, police interrogations, Federal sentencing, 
and asset forfeiture.
    She is a recipient of the University of Houston's 
Distinguished Leadership in Teaching Excellence in 2015; 
students love her--as well as a Teaching Excellence Award in 
2003, and the Ethel Baker Faculty Award in 2000. She has 
received numerous awards, and she was the editor of the Yale 
Law Journal, and a graduate of Yale University, B.A., and a 
J.D. from Yale University. And so, she's a fellow alum.
    Thank you so very much, and you are welcome. I yield back, 
Mr. Chairman.
    Mr. Gowdy. The gentlelady yields back. Welcome to all of 
our witnesses.
    Dr. Weedn, you will be recognized for 5 minutes.
    Chairman Goodlatte. Mr. Chairman, I don't believe the 
witness has a microphone on.
    Mr. Gowdy. That is a very good piece of investigatory work, 
Mr. Chairman.
    Dr. Weedn. Excuse me.
    Mr. Gowdy. No forensics needed.

  STATEMENTS OF VICTOR WEEDN, PROFESSOR OF FORENSIC SCIENCES, 
   GEORGE WASHINGTON UNIVERSITY; MATTHEW GAMETTE, LAB SYSTEM 
 DIRECTOR, IDAHO STATE POLICE FORENSIC SCIENCE; DAVID BALDWIN, 
      SPECIAL TECHNOLOGIES LABORATORY, NATIONAL SECURITY 
     TECHNOLOGIES, LLC; SANDRA GUERRA THOMPSON, PROFESSOR, 
 UNIVERSITY OF HOUSTON LAW CENTER, AND CHAIR, HOUSTON FORENSIC 
                        SCIENCE CENTER.

                   STATEMENT OF VICTOR WEEDN

    Dr. Weedn. I am sorry. Well, Chairman Gowdy, Ranking Member 
Lee, and other members of the subcommittee, good afternoon. It 
is an honor and a privilege to be here. Thank you for the 
opportunity to address the committee on this important topic.
    Forensic science has become critical to our criminal 
justice system. And while forensic science has been important 
for some time, its pervasive use, power, and household 
familiarity has been a relatively recent phenomenon. 
Governments and the criminal justice system are still adjusting 
to this development. This adjustment within the Federal 
Government is lagging.
    The voice of the forensic science community is not 
commensurate with this new role, and accordingly, the forensic 
science community has been relatively neglected and 
inadequately supported.
    The 2009 National Academies of Sciences report on the 
forensic sciences criticized the practice of forensic science 
in the United States and recommended enhanced standard-setting 
efforts, increased research and development to ensure adequate 
scientific foundations, and autonomy from law enforcement 
pressures.
    To address the standards, the Department of Justice reached 
out to the National Institute of Science and Technology, or 
NIST, and transferred the standard-setting activities from DOJ 
scientific working groups to establish the NIST OSAC, the 
Organization of Scientific Area Committees, which is 
effectively and independently advancing and recommending 
standards in the field. However, the OSAC is not codified and 
does not have a permanent funding stream. Therefore, its future 
is in question. It should be institutionalized and codified.
    On the other hand, research and development has not 
advanced as much as is needed. Recently, the President's 
Council of Advisors on Science and Technology, or PCAST, 
criticized the scientific foundations of pattern and impression 
evidence. And while the interpretations and conclusions of the 
PCAST report are debatable, the report is absolutely correct on 
the need for additional research to enhance capabilities and 
instill confidence in the examination and tests performed every 
day by the forensic science community.
    Furthermore, forensic science, as currently practiced, is 
stressed and inadequately supported. The Bureau of Justice 
Statistics' latest census of publicly-funded crime laboratory 
reports significant casework backlogs. Important discussions on 
DNA mixture deconvolution, statistical interpretation, and 
language for reporting and testimony need Federal attention. 
Presently, the only grant available that exists for addressing 
at least some of these issues is the Paul Coverdell Act, which 
you recently reauthorized in the Justice for All 
Reauthorization.
    While detailed to DOJ as the senior forensic adviser to the 
Deputy Attorney General, it became clear to me that the 
creation of an outwardly-facing, grant-making Office of 
Forensic Sciences, or OFS, from a consolidation of existing 
programs within DOJ, given a forensic science mission and an 
elevated position within the DOJ structure, and with an 
advisory board from leaders in the forensic science community 
outside of DOJ, would be an important step to correct many of 
these concerns.
    The currently-existing unit within DOJ that most closely 
resembles this activity is the Office of Investigative and 
Forensic Sciences, buried within the Office of Justice Programs 
in the National Institute of Justice, the research development 
and evaluation arm of DOJ.
    NIJ's mission statement does not specifically mention 
forensic science. NIJ began primarily as a social science 
research institution, largely catering to academic departments 
of criminology. Under the original 1968 legislation, NIJ was 
authorized ``to carry out programs of behavioral research 
designed to provide more accurate information on the causes of 
crime and the effectiveness of various means of preventing 
crime, and to evaluate the effectiveness of correctional 
procedures.''
    The Division of Science and Technology was created in 1992 
with a budget of between $2 and $4 million annually and a staff 
of four. By 1994, the successor Office of Science and 
Technology, or OST, represented 18 percent of NIJ's overall 
budget, and by 2008, the budget for OST represented more than 
80 percent of NIJ's overall budget, while the social science 
research budget stagnated. Thus, NIJ was created and continues 
as a social sciences shop, but the hard, forensic science 
component has grown so fast that the social scientist directors 
of NIJ often feel compelled to hold down the forensic science, 
so that it will not consume their social science budget.
    Social science and forensic science should not compete 
within the same division headed by a social scientist. The OFS 
director should be a forensic scientist with stature in the 
field, while the NIJ should continue as a social science shop 
and with a social scientist director.
    Such an office would provide a voice for forensic science 
appropriate to its new role and would provide a vehicle for 
support to the State and local community that performs about 95 
percent of forensic science testing in the United States. Such 
an office would also establish a mechanism to combat the opioid 
crisis, if funded.
    I have provided to the committee documents that I wrote 
regarding how this could occur. I appreciate this opportunity 
to address the committee on such important matters, and I look 
forward to your questions.
    Mr. Gowdy. Thank you, Dr. Weedn.
    Mr. Gamette?

                  STATEMENT OF MATTHEW GAMETTE

    Mr. Gamette. Chairman Gowdy and Ranking Member Jackson Lee 
and members of the committee, my name is Matthew Gamette, and I 
am a laboratory system director for the Idaho State Police 
Forensic Services Laboratories, with three multi-disciplinary 
laboratories and 44 employees. I am also the chair of the 
Consortium of Forensic Science Organizations that represent six 
major forensic science organizations. We have over 21,000 
practitioners that we represent.
    Approximately 95 percent of the forensic work in this 
country is done by State and local forensic science service 
providers, or FSSPs, like my laboratories. Requests for service 
and analysis are exponentially increasing, and the funding is 
steadily decreasing for most forensic science disciplines.
    From 2011 to 2015, the number of heroin submissions to my 
laboratory increased 586 percent. In roughly the same period, 
the CDC reported a national increase of 248 percent in drug 
poisoning deaths attributed to heroin. In Idaho alone, the 
number of deaths attributed to heroin in that period increased 
1,100 percent. Labs around the country are being overwhelmed 
with cases involving heroin, synthetic drugs, marijuana, and 
other drugs of abuse. The Maryland medical examiner's office 
workload has increased 300 percent since 2014.
    Because of the associated increase in autopsies per 
pathologist, the Connecticut medical examiner's office has lost 
their full accreditation, and the Maryland medical examiner's 
office is in danger of a downgrade to its accreditation. 
Federal legislation and funding has largely addressed treatment 
and enforcement, but resources have not been allocated for 
labs, coroners, and medical examiners to deal with this heroin 
epidemic.
    Other disciplines are also seeing increased requests. In 
Idaho, latent print submissions are up 80 percent, and drugged 
driving submissions are up 88 percent over the last 2 years. 
Nationwide, there are 3.8 million requests each year for 
forensic examinations in support of the criminal justice 
system.
    Not surprisingly, there are case backlogs all over the 
country. Labs cannot develop new methods fast enough and cannot 
afford the equipment to keep up with emerging issues like these 
drug issues. The delay in analyzing evidence creates delays in 
the criminal justice system, affecting speedy trial rights of 
defendants.
    These caseloads, backlogs, and personnel shortages are only 
an estimate for major State and local laboratories. There is 
still no estimate of how many FSSPs exist in the country. The 
Bureau of Justice Statistics surveys 409 larger laboratories on 
a regular basis, but the number of small, latent, print-and-
identification units, digital forensics laboratories, and other 
one- or two-person forensic practitioner units is still 
unknown. The shortfalls I report on today are surely greater 
than we can now calculate.
    Many years ago, the community itself pushed to adopt more 
robust international accreditation standards, and last year, 
the Attorney General recognized the importance of accreditation 
for crime laboratories in a directive she published that all 
Federal labs would be accredited by 2020. While 99 percent of 
State laboratories are accredited, many small operations are 
not. The most frequent obstacle to accreditation is the cost. 
The Maryland medical examiner's office spent 54 million on 
facility needs to meet accreditation requirements. It costs 
hundreds of thousands of dollars each year in positions, 
training quality assurance to meet all of the stringent quality 
and management criteria of accreditation in my laboratory.
    Training and ongoing education is another imperative for 
laboratory personnel. Training in most laboratory disciplines 
can take several years and cost the laboratory hundreds of 
thousands of dollars to train one, single examiner.
    Training is also a desperate need in the areas of forensic 
nursing and forensic pathology. It is extremely difficult to 
recruit and retain the number of medical doctors, who are 
pathologists, needed to perform forensic autopsies. The Paul 
Coverdell Granting Program is critical for forensic science 
service providers. Each year, we encourage DOJ and the White 
House to include Coverdell in their budget recommendations. It 
is extremely disappointing that, with the critical needs of 
forensic science, this funding has not been recommended in the 
President's budget for some time.
    Fortunately, Congress and this body has stepped up with 
Coverdell funding in support of forensic science. Coverdell is 
one of the only Federal granting programs for medical examiners 
and also many laboratory disciplines. While we are extremely 
grateful for the funding, so much more could be done with a 
fully-appropriated Coverdell program, and we encourage you to 
fund Coverdell to the full authorization amount.
    The Department of Justice reported that 125 excellent 
requests were made last year for Coverdell competitive funding 
that were not able to be fulfilled due to a lack of funding. 
Over $14 million in needed instrumentation and training from 
mostly State and local labs could not be funded to support the 
criminal justice system of this country. Even a very small 
investment in the Federal budget could make a huge difference 
in this community.
    We believe that more input is needed, from State and local 
practitioners to high-level decision makers at DOJ, to 
communicate the outcome opportunities and challenges of Federal 
granting programs. Sometimes, small changes in a granting 
program can have huge, unintended impacts and consequences on 
State and local practitioners. We believe that even more 
substantive conversations are needed with DOJ and Congress 
regarding forensic operational needs, research needs, 
technology transfer, and impacts of DOJ policy on State and 
local labs. More resources are needed; more State and local 
issues must be discussed; and ultimately, more Federal 
leadership is needed in forensic science practice in the United 
States.
    Mr. Chairman, the American Society of Crime Laboratory 
Directors, the National Association of Medical Examiners, the 
Society of Forensic Toxicologists, the American Board of 
Forensic Toxicology, the International Association of 
Identification, and the International Association of Forensic 
Nursing supports the OFS as laid out previously by Dr. Weedn.
    Mr. Gowdy. Thank you, Mr. Gamette.
    Dr. Baldwin?

                   STATEMENT OF DAVID BALDWIN

    Dr. Baldwin. Good afternoon, and thank you, Chairman Gowdy 
and Ranking Member Jackson Lee, for this opportunity to address 
the subcommittee. I want to talk to you today about the need 
for a wide range of research and development in the field of 
forensic science.
    I am telling you this based on almost 20 years of working 
with the forensic science practitioner community to understand 
the challenges that community faces in delivering the best 
scientific analyses they can for our legal system. I have 
worked with these practitioners in partnerships on research 
projects, developing and delivering new training, and building 
partnerships with universities to improve forensic education, 
and collaborating with lab directors to find better business 
and operations methods, and in participating in the community's 
standard-setting organizations.
    My perspectives on research needs in this field have come 
from the community's critical introspection, as well as the 
aspiration of these science professionals. Some of the most 
topical and timely research needs relate to studies to better 
understand the reliability, and therefore the value, of 
forensic science analyses. My particular interests are in 
research for the pattern evidence fields. Many of these same 
issues and areas apply more broadly across all of forensic 
science. In order to communicate the proper weight and value to 
give to a particular scientific analysis, it is important to 
have an idea of the reliability of the evaluation. Some of 
these studies, sometimes called black box studies, have been 
performed, and more are anticipated.
    Given my prior experience in designing and executing a 
reliability study for firearms analysis, I am convinced that 
research is needed to help develop 3-D imaging technologies 
that preserve evidence and present it in a way that can be used 
by examiners for comparisons. There are several reasons and 
benefits to this development. The most immediate has to do with 
the issues associated with assembling one of these studies. 
Firearms examiners make very few errors. When you design an 
experiment to measure a very small error rate accurately, you 
need a large sample set with lots of materials, lots of 
examinations, and many participants. Use of 3-D image sample 
sets will greatly reduce the difficulty and cost of assembling 
these studies, allowing faster progress on these priorities.
    A lot of this research has begun at some level. The current 
environment for forensic science research includes resources 
managed by many agencies across the Departments of Justice, 
Commerce, Defense, and Homeland Security. It is important to 
understand that forensic science is still a developing field of 
research and development. To encourage that development, the 
field needs more than a handful of studies and a few more 
practitioners. There needs to be sustained, fundamental basic 
and applied research, advanced engineering, and robust testing 
and evaluation. This level of effort needs to attract students, 
faculty, and lab researchers that dedicate their careers to 
forensic science research.
    Over the years, I have developed programs to partner with 
crime laboratories to provide resources to satisfy a wide range 
of needs. During my time at Ames Laboratory in Iowa State 
University, I and my colleagues developed a strong partnership 
with Federal, State, and local crime laboratories in a 16-State 
region to provide access and a means to develop resources for 
forensic science. It was called the Midwest Forensic Resource 
Center. The goals of the center, developed with our stakeholder 
partners, were to provide access to experts and unique 
instrumentation, to develop and deliver shared training to 
improve the level of interaction between crime labs and 
forensic science educational programs, to perform research and 
collaboration with crime labs, and to test and evaluate new 
business and infrastructure models for public laboratories.
    I recently left the University and Federal Ames lab. I now 
work as an R&D manager at Special Technology Laboratories. SCL 
is a division of National Security Technologies, an NSA-owned 
research facility. I am here working with some of my old 
partners from the MFRC, such as Director Gamette of Idaho, to 
establish a new resource center for the Western States region. 
This new center is to be built around the resources of STL in 
California and the Nevada National Security Site and the Remote 
Sensing Laboratory in Nevada. We believe this partnership will 
continue to find effective ways of developing and delivering 
resources to improve forensic science.
    I want to thank you for the opportunity to speak with you 
today and share my vision of what needs to be done to move 
forensic science forward.
    Mr. Gowdy. Thank you, Dr. Baldwin.
    Ms. Thompson?

              STATEMENT OF SANDRA GUERRA THOMPSON

    Ms. Thompson. Chairman Gowdy, Ranking Member Jackson Lee, 
thank you for your invitation to be here. I want to echo the 
comments made by the panelists today, and I would also add my 
concern, which is that I believe that forensic science should 
be moved in the direction of independence from law enforcement. 
My comments today are based on extensive national research that 
I did for a book which was published in 2014 called Cops in Lab 
Coats: Curbing Wrongful Convictions through Independent 
Forensic Laboratories, as well as my work as the vice chair of 
the board of directors for the Houston Forensic Science Center, 
Houston's crime lab.
    Local communities pay dearly when forensic science gets it 
wrong. Wrongful convictions ruin lives and families. Hundreds 
of people have been wrongly convicted through faulty forensic 
science, and those are only the ones that we have discovered. 
When innocent people are wrongly convicted, victims do not get 
true justice, and actual perpetrators remain at large, often 
committing more crimes against more victims. And local 
taxpayers lose when localities are forced to pay millions of 
dollars in damages and when localities are forced to conduct 
large, retrospective reviews of thousands, and even tens of 
thousands, of past convictions to determine whether the same, 
flawed forensic evidence may have been present in those cases, 
as well. And the most important concern is that communities 
lose faith in the entire criminal justice system if there are 
wrongful convictions caused by faulty forensic science.
    Houston learned this the hard way. The Houston Police 
Department crime lab was once called the worst crime lab in the 
country by the New York Times in the early 2000s. From 2002 to 
2009, the HPD crime lab struggled, and the city paid millions 
of dollars in damages and for remedial efforts. But this is not 
a unique story.
    In Ohio, the Cleveland Police Department crime lab had 
similar exonerations and multimillion dollar damages from 
lawsuits. Labs in Florida, Maryland, New York, California, 
Massachusetts, Montana, West Virginia, and many others have had 
serious, documented scandals, as well. Some analysts have been 
arrested. Others have committed suicide. Some labs have been 
closed. For example, most recently, the Austin Police 
Department's DNA lab is undergoing such a closure and major 
scandal, as well.
    In 2009, the National Academy of Sciences published its 
comprehensive landmark report calling for many changes to 
improve the nature of forensic science, and it made repeated 
calls for making forensic laboratories independent from law 
enforcement.
    Independence reduces the influences that can create 
motivational bias and unconscious, cognitive biases. It can 
better position labs to obtain adequate funding; whereas 
laboratories within police departments constantly compete 
against other, seemingly more pressing police priorities. 
Moreover, law enforcement administrators are not generally 
qualified to supervise a scientific enterprise.
    The city of Houston closed its HPD crime lab in 2014 and 
created an independent lab, the Houston Forensic Science 
Center. This lab has quickly become a pioneering forensic 
laboratory that now serves as a national model. It operates 
transparently and efficiently and employs cutting-edge quality 
control procedures that have brought it national and 
international recognition. As Congress considers the future of 
forensic science, I urge you to keep in mind the critical need 
for independence as recognized by our country's most esteemed 
scientists in the NAS report.
    Consider this excerpt: ``There is strong consensus in the 
NAS committee that no existing or no new division or unit 
within DOJ would be an appropriate location for a new entity 
governing the forensic science community. DOJ's principal 
mission is to enforce the law and defend the interests of the 
United States according to the law. The entity that is 
established to govern the forensic science community cannot be 
principally beholden to law enforcement. The potential for 
conflicts of interest between the needs of law enforcement and 
the broader needs of forensic science are too great.''
    To conclude, I believe that scientists should administer 
and oversee the effort to improve forensic science. This is not 
to say that law enforcement should not serve an advisory role, 
but the administration of forensic science research and the 
development of protocols and standards should be situated 
within scientific institutions, not law enforcement agencies, 
and I say this as a prior prosecutor myself. Thank you.
    Mr. Gowdy. I thank the witnesses for their opening 
statements. The chair would now recognize the chairman of the 
full committee, Mr. Goodlatte, for his questions.
    Chairman Goodlatte. Thank you, Mr. Chairman. Dr. Weedn, 
with respect to your proposal for the Office of Forensic 
Science within the Department of Justice, how can we be 
confident that it will maintain autonomy within the department, 
and how much would something like that cost?
    Dr. Weedn. First, the proposal is primarily a consolidation 
of existing programs, so it is largely revenue-neutral. The 
autonomy issue, I believe that, by raising the voice of 
forensic scientists within the Department of Justice, you now 
have a voice that can stand up to other pressures. Right now, 
forensic science is not being spoken to by forensic scientists, 
if at all.
    Also, the Office of Forensic Science could have statutory 
language that could help in this regard. The National Academy 
of Sciences performed a study on the NIJ and said there needed 
to be greater independence, and the result of that was a final 
approval authority. That same final approval authority could be 
given to this OFS. We also could have the office make sure that 
they adhere to the scientific and research integrity policy of 
the department.
    Chairman Goodlatte. Thank you. Let me interrupt there.
    Since I have got a limited amount of time, I want to follow 
up with Mr. Gamette on that question. In Idaho, what safeguards 
do you have in place to ensure autonomy from law enforcement, 
given that you report to the State police?
    Mr. Gamette. Thank you, Mr. Chairman. I do work for the 
Idaho State Police. I work in the Forensic Services Division of 
the Idaho State Police, and we have taken great cautions to 
assure autonomy of our laboratory system from the parent 
agency.
    So, one of the things we do is we hire scientists to work 
in the laboratory. We hire people with bachelor's degrees, 
master's degree, and Ph.D.'s to work in the laboratory system. 
We have a laboratory system director, myself. My position was 
created 2 years ago to assure that autonomy. And also, I have a 
background in science. My degree is in science. We have 
accreditation requirements that require that we are autonomous 
from our parent organization and that we take safeguards there, 
several standards, international standards that we abide by, 
and that we are assessed and audited to on a yearly basis.
    I also believe it is a concept of strong leadership and 
management within the scientific community, within our 
scientific community, in our laboratory. We have a strong 
management system of scientists. Our budget is set by our State 
legislature. They review all of the budgets that we have. The 
governor's office reviews the budgets that we have. We have 
strong reporting to our court systems, to our supreme court in 
the State, and we have made it a priority in our State to do 
forensic science----
    Chairman Goodlatte. Let me interrupt and ask, do you ever 
feel undue pressure from law enforcement to reach a particular 
conclusion in a case?
    Mr. Gamette. Chairman, I have worked in forensic science 
for 15 or 16 years, and in that amount of time, I have never 
felt pressure from a law enforcement officer or entity to reach 
a certain conclusion or to alter a conclusion that I had 
reached----
    Chairman Goodlatte. Good.
    Mr. Gamette. In favor of law enforcement.
    Chairman Goodlatte. What do you think of Dr. Weedn's 
proposal for an Office of Forensic Science at the Justice 
Department?
    Mr. Gamette. I believe it is strong. I support it. I 
believe it brings increased visibility at the Department of 
Justice. It gives us more visibility on issues like Coverdell.
    For example, the Department of Justice has continually not 
requested funding for Coverdell. We continue to come to 
Congress and ask for that funding to be restored. We believe 
that a stronger voice within the Department of Justice will 
raise that level of interest in that issue. We also believe it 
will result in better communication with State and local 
laboratories.
    I would point to the FBI hair review process. Most of the 
State and local laboratories will be impacted by that. They 
will have to do reviews on the State and local level. Now, with 
those things, the communication was not flowing from the FBI 
for a long period of time. Hopefully, we fixed some of that, 
but prosecutors were somewhat surprised when they got letters 
from the FBI and didn't know how to deal with that.
    We need resources for emerging issues, and it is important 
for us to be able to communicate with DOJ what those emerging 
issues are.
    Chairman Goodlatte. Let me cut you off there, too, because 
I am interested in the emerging issues, but I am also 
interested in hearing Ms. Thompson's perspective on what we 
have just been talking about.
    So, do you think that a forensic scientist employed by a 
law enforcement organization can be unbiased?
    Ms. Thompson. I can, and I do not think that the 
recommendations to make forensic science independent from law 
enforcement is, in any way, an indictment on the integrity of 
the forensic scientists themselves. That is not the point.
    The point is that, at the end of the day, the Department of 
Justice is a law enforcement agency headed by law enforcement, 
and my belief is that forensic science institutions, 
organizations should be independent of those law enforcement 
agencies, so that they are directed by individuals who have an 
understanding of the culture of science. And I think the 
arguments that are made here today for an Office of Forensic 
Science are made largely on the view that, to date, the 
Department of Justice has not prioritized forensic science in 
the way that it should, that they have not come looking for 
Coverdell funding and the like. And so, I think the track 
record is one that proves my position.
    Chairman Goodlatte. Thank you very much, Mr. Chairman. 
Thank you to the witnesses.
    Mr. Gowdy. The gentleman from Virginia yields back. The 
chair would now recognize the gentleman from Michigan, the 
ranking member of the full committee, Mr. Conyers.
    Mr. Conyers. Thank you, Chairman Gowdy. I want to join you 
in saluting these witnesses, and that you would pick this 
subject to bring to the attention of not only the members of 
Congress, but our citizens across this great land on the state 
of forensic science in our country. I think it is so important.
    And so, Professor Thompson, I wanted to direct a couple of 
notions, ideas, to you. How are you, as an independent 
laboratory, able to support opportunities for science and law 
enforcement to work together?
    Ms. Thompson. So, with regard to our experience in Houston, 
the laboratory works closely with the Houston Police 
Department. It is independent of the police department, but we 
work with the investigators, and we listen to them, and we have 
regular discussions with them to ensure that the work that is 
being done meets their needs.
    And so, for example, in the latent print area, there was a 
backlog that developed because the laboratory tests were not 
being properly coded, and they were not getting to the lab. So, 
we ended up with an enormous backlog of a year's worth of work 
that was brought one day to the lab. Well, in discussions with 
the investigators, our lab examiners were able to devise a new 
method for providing them with quick responses, so that they 
could quickly exclude people whose prints had been picked up 
and report back on investigative leads in other cases. And that 
kind of expedited process came through this regular 
communication that we have with the police department.
    At the same time, however, there is a culture in this lab 
that it does not report to law enforcement. The culture is that 
our client is the criminal justice system, as a whole, and the 
citizens of the city of Houston, and I think it is a very 
important culture that is created that we have tried to foster.
    Mr. Conyers. How was it that, in Houston, you came across 
or developed the first independent way to approach forensic 
science?
    Ms. Thompson. The best that I can say, sir, is that Houston 
tried, for many years, to improve the reputation of the Houston 
Police Department crime lab, but the lab was so dysfunctional 
and had so many problems in so many disciplines, and so many 
wrongful convictions, and the reporting on it was persistent 
for so many years that, ultimately, when the National Academy 
of Sciences came out with its report calling for independence, 
city leaders decided that, perhaps, that was the only way to 
finally put the scandal behind them.
    And so, they decided to take a very bold step and remove 
the lab from the administration of the police department and 
create what is called local government corporation. It is 
overseen by a board of community volunteers, such as myself, 
together with a Technical Advisory Group. And I will say, the 
Technical Advisory Group has forensic scientists on it, but it 
also has university research professors, as well, research 
scientists. And so, it is a completely different model of 
administration, but it has been, so far, I would say, quite 
successful.
    Mr. Conyers. Now, I want to ask the three gentlemen who are 
witnesses, what do you see as the major problem in creating an 
independent laboratory yourselves. Anybody want to give us an 
idea of what you are up against?
    Dr. Weedn. I will start.
    Mr. Conyers. Please.
    Dr. Weedn. To me, it is fine if a local jurisdiction wants 
to create an independent lab or not. I think an OFS could 
result in enhanced recognition support for all the labs, public 
or the quasi-public kind of operations. I just see that as a 
separate issue and, really, a states' rights issue for the 
states to deal with themselves.
    I think the Department of Justice is not going to get out 
of the justice business any time soon. I do not see them likely 
to give up their FBI, ATF, and DEA crime labs. And therefore, I 
think there needs to be an Office of Forensic Science within 
DOJ, regardless of any other, outside forensic science entity.
    Mr. Conyers. Any hope for our new Department of Justice?
    Dr. Weedn. Well, sir, I do not really want to argue this 
point because I do not have much of an oar in that basket, 
other than to say the Department of Justice, I believe, really 
needs an Office of Forensic Science.
    Mr. Conyers. Absolutely. Anybody else want to volunteer?
    Mr. Gamette. Mr. Conyers, I wish to quote, just a second, 
from the National Academy of Sciences report from 2009, and it 
states this: ``Ideally, public forensic science laboratories 
should be independent of, or autonomous within, law enforcement 
agencies.'' So, I do not necessarily agree that there is one, 
and only one, model for a forensic science laboratory in this 
country. There are many models. Some report directly to 
Governors. Some report to attorney generals. Mine reports 
within the State police. I think there are a number of models 
that could be successful.
    This is one model that Houston has chosen, and I will not 
be critical of that model. It is new. I think they are still 
learning, and I think there are things to be learned from this 
model. But I do not advocate for one, specific model because, 
as Dr. Weedn stated, it is a State and local issue.
    Mr. Conyers. It is the independence that I think you put a 
lot of emphasis on.
    Dr. Weedn. I would like to make a further comment that, 
really, one of the important things is the standards that are 
being developed. Right now, they are being developed at the 
National Institutes of Standards and Technology, completely 
outside of the Department of Justice. I think that needs to 
continue. But that means that all the crime labs, public or 
otherwise, are really looking to those same standards, and that 
is being developed outside of DOJ.
    Mr. Conyers. Dr. Baldwin, do you have any comments on this 
question?
    Dr. Baldwin. No, sir, I do not.
    Mr. Conyers. All right. Finally, my last question is 
directed, again, to Professor Thompson. Has having an 
independent lab facilitated any ability for the Houston lab to 
contribute to the Scientific Research Foundation for Forensic 
Disciplines?
    Mr. Gowdy. You may answer the question.
    Ms. Thompson. I will answer to the extent that I can. I am 
not an employee of the lab. So, I am on the board of directors. 
And I also really can't say what other labs are doing by 
contrast to what we are doing. But we do have a lot of grant 
work. I am not sure that it is any different from the kind of 
research that is, perhaps, being done in other laboratories, so 
I do not want to make false claims.
    Mr. Conyers. Surely. I understand. Thank you. Chairman 
Gowdy.
    Mr. Gowdy. I thank the gentleman from Michigan. The chair 
would now recognize the gentleman from Texas, the former United 
States Attorney, Mr. John Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I would like to ask 
that a statement from the National District Attorneys 
Association on the state of forensic science in the United 
States dated today, Tuesday, March 28, 2017, be made part of 
our record for the hearing. Thank you.
    Mr. Gowdy. Without objection.
    [This statement can be found at the Committee and is 
available online at: http://docs.house.gov/meetings/JU/JU08/
20170328/105786/HHRG-115-JU08-20170328-SD003.pdf]
    Mr. Ratcliffe. I want to thank all the witnesses for being 
here. This is a really important topic and one that interests 
me as a former Federal prosecutor, like the chairman and a 
number of the witnesses here.
    I want to start on the PCAST report that you mentioned, Dr. 
Weedn. I had a chance to read that, and it seems to me that 
maybe the keys of forensic science have been handed over to 
legal activists. But at the same time, I confess, I know 
millions of dollars have been spent recently on commissions and 
committees and standard structures and a host of other 
initiatives, and yet we find forensic science, frankly, more 
maligned and disparaged than, perhaps, ever before. So, I guess 
I want to start and ask your opinion on that report: whether 
you think it has the scientific rigor, if you will, to defend 
its foundational validity.
    Dr. Weedn. So first, I will say that is an advisory body 
with their own opinion. It, of course, flies in the face of 
decades of admission into courts of law across this country. Of 
course, there is many thousands of forensic scientists going to 
court, defending themselves against cross-examination, 
believing in what they do.
    I will point out that the PCAST report talks about a 
definition of scientific validity that they have no citation or 
reference for. It is simply their definition. That definition 
for subjective examinations is largely wrapped around black box 
studies and known error rates. I will point out to you that, in 
order to form an error rate, you have to have a method that was 
based upon a principle and mature enough that you can now 
assess those error rates. So, it seems to me not so much a 
scientific foundation, but later in the process.
    But then the other important point is they imply, in the 
PCAST report, that, without their definition of scientific 
validity being met, it should not be introduced into court, 
should not be admissible. I will point out to you that the 
Daubert v. Merrell Dow Pharmaceutical Company case that was 
decided by the U.S. Supreme Court actually addressed, what is 
scientific reliability? And they came up with a set of Daubert 
factors, of which known error rates was only one.
    Mr. Ratcliffe. Thank you. I want to follow up, because I do 
not know if it came out of PCAST or if it came out of the 
National Commission on Forensic Science, but recently, DOJ has 
made a number of changes in policy that impact what you all do 
every day. One of those is that, under the prior Attorney 
General, I know that it was ordered that only accredited crime 
labs be used by 2020, I think is the year. What impact do you 
think that is going to have on the role that you all play?
    Dr. Weedn. Well, I will start this answer, but I am sure 
Mr. Gamette will continue.
    So, I think there were several recommendations that were 
dealt with by Department of Justice, and I believe that they 
were dealt with in a good fashion. I do not believe that the 
recommendation for accreditation has a whole lot of teeth to 
it. The Department of Justice itself is largely accredited. 
There is only two digital evidence units within the criminal 
division section that are not accredited.
    The A.G. memo specifically accepted digital evidence in 
that accreditation, and in terms of the 2020, then that 
suggests that prosecutors should seek accredited labs to admit 
the evidence in. However, there is not a lot of power there. 
The U.S. Attorney is largely captive to whatever forensic 
science testing has been performed.
    Mr. Ratcliffe. Mr. Gamette, do you want to weigh in 
quickly?
    Mr. Gamette. Certainly. Thank you. Accreditation is 
important. We believe in accreditation. The Consortium of 
Forensic Science Organizations, the members within that, 
invented a lot of the accreditations for forensic labs. And we 
support the Attorney General in saying that all Federal labs 
and Federal prosecutors that are using forensic science at the 
local level, which we do some Federal work in States, but I 
would also say that 99 percent of the State laboratories are 
already accredited.
    So, the funding that is going to be needed is in the local 
and the bigger local laboratories and the smaller local ident 
units, as we call them. And so, we support that. We support her 
recommendation. However, the funding is not there, and some of 
these commissions that have been stood up have not been 
considering the funding aspects of what they are recommending. 
We need the funding in order to undergo universal accreditation 
for forensic science providers in the country.
    Mr. Ratcliffe. Thank you. My time is expiring, but if the 
chairman will indulge me, I want to follow up, because another 
change that the Department of Justice announced last September 
was to direct Federal crime labs to stop or to eliminate using 
the term ``reasonable scientific certainty'' from all reports 
and from all testimony. Now, as someone that tried a number of 
cases in this area, that is a phrase that I heard a lot and 
that I used a lot, and I am sure Chairman Gowdy would probably 
admit that some of his convictions might have been acquittals, 
had that term not been used. So, I am wondering what you 
think----
    Mr. Gowdy. He does not admit that. He does not admit that.
    Mr. Ratcliffe. So, is there significance to that? Am I just 
making a bigger deal out of that than I should?
    Dr. Weedn. The Department of Justice did conclude that they 
should abandon, to the extent possible, the term ``reasonable 
scientific certainty.'' There was a recognition, particularly 
in the civil context, that you could not necessarily abandon 
it, but in the criminal context, it largely is seen as not 
having so much meaning. There is not a specific definition. 
Often, it is used to bolster testimony. I believe that you can 
say the same thing really, in other words, and I do not believe 
that it will actually have a whole lot of impact or negative 
impact in the community.
    Mr. Ratcliffe. Thank you. I yield back.
    Mr. Gowdy. The gentleman from Texas yields back the 2 
minutes and 32 seconds that he has. The chair would now 
recognize the gentleman from Michigan.
    Mr. Conyers. Mr. Chairman, I ask unanimous consent to have 
my opening statement inserted belatedly into the record.
    Mr. Gowdy. Without objection.
    I thank the gentleman from Michigan. The chair would now 
recognize the ranking member, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the chair very much for yielding. 
And it was interesting to listen to a number of the questions, 
and particularly the testimony given, or the questions raised 
by the witnesses, and so I would like to be able to ask each of 
you questions, though it will not be long enough, but 
hopefully, I will glean from it some of the intensity of your 
remarks.
    Let me quickly frame for you, again, an international 
question dealing with an FBI statement in 2004 regarding 
Brandon Mayfield. And the story, or the facts, are that, after 
the March terrorist attacks on commuter trains in Madrid, 
digital images of partial, latent fingerprints obtained from 
plastic bags that contained detonator caps were submitted by 
Spanish authorities to the FBI for analysis.
    Skipping over the results of an IAFIS search produces a 
short list of potential matches. A trained fingerprint examiner 
then takes the short list of possible matches and performs an 
examination to determine whether the unknown print matches a 
known print in the database. Using standard protocols and 
methodologies, it was linked to a Brandon Mayfield.
    Soon after the submitted fingerprint was associated with 
Mr. Mayfield, Spanish authorities alerted the FBI to additional 
information that cast doubt on the findings. As a result, the 
FBI sent two fingerprint examiners to Madrid, who compared the 
image the FBI had been provided to the image Spanish 
authorities had.
    Upon review, it was determined that the FBI identification 
was based upon an image of substandard quality, which was 
particularly problematic because of a remarkable number of 
points of similarity between Mr. Mayfield's prints and the 
print details on the images. However, the ultimate results of 
that is that the FBI plans to ask an international panel of 
experts to review their examination of the case, and they 
proceeded to apologize to Mr. Mayfield and his family for the 
hardships that this matter had caused.
    So, I think I am gleaning from all of your testimony, you 
are very serious about the crucialness of this science in 
whatever form it may take for justice, both to solving a crime 
like a terrorist act in Madrid, Spain, to the heinous acts of 
sexual assault, which, for many years, we would have angst 
about DNA kits, which was one of the issues that collapsed the 
lab in Houston. Just frightening to know the backlog of DNA 
kits.
    So, Dr. Weedn, you sort of indicated that, buried in the 
DOA, the Office of Investigative and Forensic Sciences, the 
Office of Justice Program O.I., OJP, and the National Institute 
of Justice, there lies whatever there is in relationship to the 
DOJ, aside from the FBI lab at Quantico that all the law 
enforcement tend to try and use. Is there some other entity in 
the DOJ?
    Dr. Weedn. Well, yes, ma'am. So, in terms of forensic 
science, they have operational components in the ATF, the DEA, 
the FBI, and two small, digital forensics units within----
    Ms. Jackson Lee. Those are like labs.
    Dr. Weedn. The criminal division. Those are the operational 
labs.
    Ms. Jackson Lee. Right.
    Dr. Weedn. But the OIFS within the NIJ is externally 
looking. It really responds to the outside community, if you 
will. That is where the outside community gets some support. 
But it is small compared to the actual magnitude of the issue, 
and it does not have a mission of forensic science. That is a 
secondary issue.
    Ms. Jackson Lee. And that is your complaint? That it does 
not have a focused mission?
    Dr. Weedn. It is not only that it does not have a focus on 
forensic science, but it does not have a voice that is loud 
enough to match its new role in the criminal justice system. 
So, I really believe that it needs to be raised in profile and 
not under a social scientist shop that keeps it down.
    It has grown, obviously. There has been some support, but 
it is not near the magnitude necessary. If we look at the 
opioid crisis, if I understand correctly, the drugs and crime 
solicitation had two proposals funded, both for just sample 
preparation. That hardly deals with the national crisis.
    Ms. Jackson Lee. Thank you. Let me proceed with my 
questioning of Mr. Gamette and the issues that you raised. You 
seem to suggest that, on the accreditation issue, the question 
of, what quality of lab should there be? Are you suggesting 
that it is not worth it to run a high-quality lab? If so, which 
of the criteria do you think are unnecessary?
    Mr. Gamette. Congresswoman, I did not intend to convey, in 
any way, that accreditation is not important. Accreditation is 
paramount for a laboratory system in any model in this country. 
We fully support accreditation. My lab has been accredited 
since 1987. We have been internationally accredited since 2007. 
We abide by those standards. We live by those standards. We are 
assessed and audited to those standards on a daily and, 
formally, on an annual basis. We believe in accreditation. It 
makes labs better.
    Ms. Jackson Lee. Well, what is your point about the high 
cost of accreditation, and what is your response to that? What 
are you suggesting? Because these labs cost a lot of money.
    Mr. Gamette. Thank you, Congresswoman. Yes. Absolutely, the 
cost of accreditation needs to be considered when we are making 
a recommendation for Federal laboratories or for State and 
local laboratories that are doing Federal work that may be used 
in Federal cases or in the trickle-down effect, if we hope to 
tie grant funding to accreditation or something of that nature. 
Laboratories need help with the funding, especially the very 
small, one-, two-person crime laboratories or forensic science 
providers. They need the help. They need the support. For my 
laboratory, we can support that through State-level funding. 
For some, they cannot.
    Ms. Jackson Lee. And when you talk about the labs, are you 
talking about the labs that deal governmentally or the private 
labs?
    Mr. Gamette. I am talking specifically about the government 
labs.
    Ms. Jackson Lee. That may be small and need support?
    Mr. Gamette. Correct.
    Ms. Jackson Lee. I will pursue a line of questioning. If I 
can just finish two questions, Mr. Chairman, I would appreciate 
it because I want to get to Ms. Thompson, Professor Thompson.
    Dr. Baldwin, I am concerned on the issue that you have 
raised, I think, in 3-D images, and so I want to try to 
understand. With the 3-D images, in truth, you cannot really 
create a representative set of limited data. That is a basic 
premise of scientific research. Should we not exercise great 
caution in using any such method in court? The 3-D images?
    Mr. Gowdy. Dr. Baldwin, I want you to answer, but I want 
you to answer as succinctly as you can. We have two more 
members to go, and then are going to call votes. So, answer it, 
but just as succinctly as you can.
    Dr. Baldwin. Yes, ma'am, I think we would be very careful 
using it in court. The intent of using the 3-D imaging in the 
context I was talking about was providing examiners with 
feedback on the quality of the material that they were 
examining, so that they could be cautious about very high 
quality versus low quality in making their conclusions.
    Ms. Jackson Lee. I ask unanimous consent to put into the 
record--and as I ask that, if Ms. Thompson can finish and 
explain her position on the independence of labs. But I ask 
unanimous consent to place in the record the West Virginia Law 
Review, by Professor Guerra Thompson, article on the DNA. Can 
you just quickly explain your position on labs being 
independent?
    Ms. Thompson. Yes, ma'am. I think Professor Paul Giannelli, 
who is a member of the National Forensic Science Commission, 
has written extensively about his concerns on the interference 
in scientific research from having so much authority vested 
within the Department of Justice. It is not an area that I have 
focused on, but I am familiar with his work, and I cite it in 
my book.
    I will say, in Texas, we have had issues with forensic 
science, and our legislature has chosen to create a State Texas 
Forensic Science Commission. It is independent of law 
enforcement, and this commission now oversees all forensic labs 
in the State, which have to be accredited. Our lab is 
accredited to international standards, fully, with the 
exception of crime scene, and I think what we have seen in 
Texas is that independence, in all facets of forensic science, 
is a goal that is a valuable one.
    Mr. Gowdy. The gentlelady's time is expired. The chair 
would now recognize Mr. Chabot.
    Mr. Chabot. Thank you, Mr. Chairman. Mr. Gamette, let me 
begin with you, if I can. The opioid epidemic is having a 
devastating impact all over the United States, including in my 
district, which is Cincinnati and the surrounding area. How is 
the opioid crisis affecting the forensic science community, and 
what, if anything, should we, in Congress here, do about that?
    Mr. Gamette. Thank you so much for the question. The 
Federal Government's actions in this area have been mainly 
focused on prevention, interdiction, and therapy. Forensic 
science has not been considered very heavily in this arena yet. 
Now, it is a workload issue for the laboratories. I mentioned, 
in my testimony, about how much the workload has increased for 
the medical examiners, for the toxicologists that are doing the 
blood samples, also for the drug chemists that are working in 
our laboratories.
    Now, it is an issue of accreditation for medical examiners. 
The more cases they work, the more autopsies they work, the 
more at risk they put their accreditation status, because they 
can only work so many per year. The instrumentation needs of 
this country and the validation needs are astonishing, and we 
could definitely use the support in the laboratories.
    Now, the OFS could raise the level of visibility of this 
issue. It was only recently that the Department of Justice 
started to talk about the opioid crisis and how it might impact 
forensic science and that Office of Forensic Science could 
start that discussion earlier with other emerging issues, 
because we are in the opioid crisis now. It will not be this 
crisis next time. It will be something else that this office 
can be forward-thinking and forward-looking on.
    Mr. Chabot. Thank you very much. Professor Thompson, let me 
turn to you next, if I can. What are the estimates of how many 
individuals have been falsely imprisoned because of botched 
forensic evidence, and what is the average turnaround time to 
exonerate someone unfairly imprisoned?
    Ms. Thompson. Those are good questions, and I looked a 
little bit at that issue before I came. In my book, I take 
information from the Innocence Project, documenting over 100 
people who have been exonerated by means of DNA evidence. Now, 
that is just one group. There are others. In Houston, just in 
the last couple of years, there have been a couple of hundred 
people exonerated of felony drug charges who were convicted 
before lab tests were even done. Now, those are not forensic 
errors, but they point at some of the issues. They relate to 
forensic science, if you will.
    But with regard to errors, we know of over 100 that were 
exonerated through DNA. There are clearly others, I mean, and 
law professors uniformly will talk about how these cases that 
we discover are, we believe, the tip of the iceberg.
    Mr. Chabot. Okay, thank you very much. And then my next 
question could be my final question for anybody or multiple 
people who may want to take it on. I mentioned my district is 
Cincinnati, and we had a murder case about 20 years ago, and 
the last name was Culberson. And the victim was a young lady, 
22 years old. Her name was Carrie. Her mom's name was Debra. We 
got to know her very well as a result of this case.
    Carrie's boyfriend was ultimately convicted, denied it, and 
is serving a life sentence, but they never found her body, and 
there were all kinds of speculation as to what happened. But 
they never recovered anything. And we worked with the mom and 
got to know her, as I say, and it was a very sad case.
    And one of the things we found, there is an awful lot of 
runaway kids that may be from Ohio, and they end up in 
California, or it doesn't necessarily have to be kids, but 
anybody could be abducted. But the families don't know, 
ultimately, what ever happened to them. And because of the 
system, and this is some years ago, we do not necessarily know. 
I mean, they might find a shin bone in a field in Oregon, or 
they might find this or that, or they might be sitting, waiting 
to be examined in somebody's table in the back room somewhere.
    We heard all kinds of horror stories about how difficult it 
is to figure out who they are and match them up with families 
that are seeking their loved ones. And my question is this: 
what advances, what progress are we making in identifying human 
remains and making the families that are trying to find their 
loved ones aware of it? It looks like, Dr. Weedn, you are the 
man.
    Dr. Weedn. Yes, there is a lot I could say. But for 
shortness, I will point out the National Missing and 
Unidentified Person System. This is called NamUs. It is an 
entity, an operational program within the Department of Justice 
and, more specifically, NIJ. Actually, NIJ has sometimes tried 
to cut it out because it is not a research program, which is 
their mission. I think an OFS would provide a home for it.
    But real quickly, NamUs has a missing persons piece and an 
unidentified persons piece. This is law enforcement. This is 
coroners. And that is a software system that allows them to get 
together across the country. It could be particularly extended 
to, say, Mexico and Canada, so we can get some people coming 
across those borders. Thank you.
    Mr. Chabot. Thank you very much. Thank you.
    Mr. Gowdy. The gentleman yields back. I would recognize 
myself for questioning. And I do not want to get all Madisonian 
on anyone, but as I was listening to you all talk, having been 
in both State and Federal justice systems, if you were to ask 
me what the preeminent functions of government were in the 
State of South Carolina, I would tell you, ``public safety and 
education.'' But it would not dawn on me to expect other States 
to subsidize South Carolina's State criminal justice system. 
That should be a priority in South Carolina, just like it 
should be with children's advocacy centers and domestic 
violence shelters. Those are almost indigenously State crimes.
    So, I do understand why there is a look towards Washington, 
but most of the crimes that I have heard discussed this morning 
are either uniquely State, or there would be concurrent 
jurisdiction in all drug cases, State and Federal. I would like 
to see some of the pressure brought to bear, and I am sure you 
all are, in your own jurisdictions. It is one of the reasons we 
have government, is public safety.
    So, let me ask you this, Dr. Baldwin. Most prosecutors are 
not good with math or science, which is why we go to law 
school. So, help me understand: is the quarrel with the 
underlying science, or is the quarrel with the manner in which 
that science is cross-examined or used? In other words, have 
you just discounted bite-mark science or tire-tread science, or 
is the cross-examination just not effective and the manner in 
which we use those scientific tools suspect?
    Dr. Baldwin. I believe that there needs to be an 
understanding of the value of a particular examination and the 
field that you are looking at, whether it is bite marks or it 
is tire treads; the use for the evidence depends on the case 
that you are looking at it for, and so, how relevant is it to 
the question that is trying to be answered? And so, one attempt 
to that is to understand the statistics for all applications of 
a particular science, and so we question the overall error rate 
for a field. That might be a misguided question to say whether 
it is science or whether it has value in the case.
    And so, I think that it is important to provide the best 
tools, so that the person who is doing an examination, first of 
all, is answering questions that are relevant to the case at 
hand and, also, that we understand the value of it to answering 
the question and how often they can be wrong, so we know how 
strong their argument would be.
    Mr. Gowdy. But part of what you just described is a fact 
witness, and part of what you just described is an expert 
witness, and experts get to express opinions.
    Dr. Baldwin. Yes.
    Mr. Gowdy. Fact witnesses do not. So, if it is an accepted 
area that has scientific value, and it has been, whatever the 
Daubert test is now; I have been gone for so long. Then that 
person could give an expert opinion; whereas most law 
enforcement officers cannot give an opinion on anything. So, 
that is why I asked. But let me move on to this, and I will 
immunize you if I need to, to ask you this question. But do you 
know what marijuana smells like?
    Dr. Baldwin. I certainly know from walking through crime 
labs with a bale.
    Mr. Gowdy. Let me ask Mr. Gamette. He is a little younger. 
And I will offer you immunity, too, if you need it to answer 
the question. Do you know what marijuana smells like?
    Mr. Gamette. Chairman, we have marijuana come into the 
laboratory every day. Bales of marijuana sometimes come into 
the laboratory every day, and I have definitely smelled the 
smell of marijuana.
    Mr. Gowdy. Right, we will go with that explanation. Let me 
ask you this. Is there a requirement that you call an expert 
witness to test marijuana to see that it is marijuana? Can you 
prove it with circumstantial evidence?
    Mr. Gamette. Mr. Chairman, if our scientists have marijuana 
submitted into the laboratory, we will run scientific tests.
    Mr. Gowdy. I know you will, but trust me as a prosecutor, 
there is no requirement. It goes to the weight, and it goes to 
how juries will view it, but there is no requirement that you 
prove that it is marijuana. I mean, there is a requirement that 
the jury conclude it, but you do not have to conduct a test. In 
a perfect world, of course, every prosecutor wants every stalk 
of the plant tested. But it is not a requirement once you get 
to court.
    Dr. Weedn, you and the former U.S. attorney of Texas had a 
conversation about reasonable degree of scientific certainty. 
There is another phrase that you hear from time to time in 
criminal court, which is reasonable doubt. In fact, in some 
jury instructions, you hear it almost every other sentence. 
There can be no definition for reasonable doubt in Federal 
court. So, that is a phrase that juries hear, and no judge ever 
explains what it means. So, why not be able to use the phrase 
reasonable degree of scientific certainty, even though it does 
not have a great explanation or great definition?
    Dr. Weedn. Imagine what the role of the expert is on the 
stand when that question is asked. It essentially asks that 
expert, ``Well, what is the community consensus?'' And 
sometimes, you really do not know that on very specific issues. 
If you say, ``No,'' then your whole testimony can be thrown 
out, even though you really do not know what the community 
response is. It is a very unfair question to the expert.
    Mr. Gowdy. Well, proving reasonable doubt is pretty tough, 
too, particularly when the jury is never given an explanation 
of what it means. And some of that, it strikes me, can be done 
on cross-examination. I mean, we have talked about what good 
labs would look like, and if they were all accredited, you 
could do all of that. You are still going to get cross-
examined.
    Dr. Weedn. I think I would prefer to be asked the question, 
``What is in the literature? What do the colleagues that I know 
ask? What is the basis for my testimony in this way or that?''
    Mr. Gowdy. So, to treat you like we would an expert in a 
civil case? Because those are the kinds of questions we would 
ask you. We would not ask you to a reasonable degree of 
scientific certainty in a civil case.
    Dr. Weedn. In a civil case, it comes up particularly in the 
medical context.
    Mr. Gowdy. Right.
    Dr. Weedn. Where it is asked reasonable medical certainty, 
and that is used to establish an objective standard of care. 
So, there is a reason for its use in that. It is really 
different than in the criminal context.
    Mr. Gowdy. I am with you. We will finish this conversation 
later. And the other thing I want us to get to at some point, I 
went through a long list, forensic pathologists, which are near 
and dear to homicide prosecutors' hearts, firearms, 
fingerprint, toxicology, drug analysis, pharmacology. There is 
a whole body of experts out there called mitigation experts, 
and I, for the life of me, do not know how you test and probe 
experts in capital cases whose testimony consists of, ``this 
person had a really bad childhood,'' and not linking it to the 
crime. So, to my friends on the defense side, I understand 
wanting good science on the prosecutorial side. It would be 
nice to have a better understanding of what a mitigation expert 
is on the defense side as well.
    With that, and with votes pending, I can tell you, on both 
sides of the aisle, this is really important. You all are 
experts, and I will speak for myself. I am not. Ms. Jackson Lee 
may be; others may be. I am not. So, we benefit from it. And 
more than anything else, we benefit from a justice system that 
is not only respected, but worthy of respect.
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Gowdy. Yes, ma'am?
    Ms. Jackson Lee. You are so kind with your generosity. May 
I get one question for Ms. Thompson on the record that I did 
not, that was the genesis of the lab in Houston, which I think 
all of us faced, and you, as a prosecutor, faced, and that is 
the impact of rape kits stagnating in law enforcement offices 
across the nation, frankly? And that was one of our major 
issues in Houston. What was the impact, and what have you seen 
the difference? If the chairman would yield for her to answer 
that question, I would really appreciate it.
    Mr. Gowdy. Certainly.
    Ms. Thompson. So, in Houston, when we took over, when we 
created this board of directors for the lab, there were 
somewhere between 6,600 and, I don't know, maybe eight or 9,000 
sexual assault kits that had not been tested. The Texas 
legislature has now required that all sexual assault kits have 
to be preserved forever, as far as I know, and that they must 
all be tested. So, that created a legal obligation for us to 
test them all. They had not all been requested to be tested, 
but now they all had to be, by law.
    And the city of Houston came up with money that was 
supported by Federal grant money, as well, to get all of those 
rape kits tested, and they have been tested by outside, private 
labs, and there were quite a few arrests that were made as a 
result of that. So, there was definitely justice delayed, and I 
believe that there were some additional rapes that occurred in 
the interim, during that delay. So, it is definitely a concern, 
like I say. We are very proud that we do not have a sexual 
assault kit backlog of any kind, and we have a very aggressive 
definition for backlog.
    Ms. Jackson Lee. Mr. Chairman, I will just end by saying to 
you, because you made a point. I do not think that we have a 
disagreement, but in the instance of Houston, the Federal 
grants were crucial to be a lifeline to get them out of the 
abyss that they were in and to be able to mount the attack on 
the backlog. And you can see that was a huge number just for 
one jurisdiction.
    So, I would offer to say that Federal funds can be helpful, 
and I just listened to Mr. Gamette talk about small labs, and I 
want to pursue that some other time about the smaller labs. But 
it has been helpful to getting labs right-side-up, to be able 
to ensure that the backlog is caught up, and that justice is 
rendered. So, I thank you, and I thank the witness for her 
statement.
    Mr. Gowdy. Yes, ma'am. We do not have a disagreement at all 
on that point. I guess my only lamentation was what it took the 
Federal Government to reduce the backlog in a State that has 
the economy and, frankly, the budget surplus of a State like 
Texas.
    Public safety is the preeminent function of government, and 
we ought to fund that like it is the preeminent function of 
government. And winning cases this day and age and exonerating 
the innocent is the highest function of government. We ought to 
fund it that way. So, you and I are in accord there. I just 
wish it were done at the level at which the crime took place.
    With that, I thank each of you, and members will have an 
additional 3 days to submit questions or, otherwise, comments 
for the record.
    And with that, we are adjourned. Thank you very much for 
your expertise.

                                  [all]
</pre></body></html>
